No. 20-6684

In the Supreme Court of the United States
DANIEL T. SILVERIA, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF SERVICE BY MAIL

I, Arthur P. Beever, Deputy Attorney General, a member of the Bar of this Court
hereby certify that on March 22, 2021, with counsel’s consent, a copy of the Brief in
Opposition in the above-entitled case was served by electronic mail upon:
Timothy J. Foley
Senior Deputy State Public Defender
State Public Defender’s Office - Sacramento
770 L Street, Suite 1000
Sacramento, CA 95814
(916) 322-2676
Email: tim.foley@ospd.ca.gov
Counsel for Petitioner
Daniel T. Silveria, #K-57200
I further certify that all parties required to be served have been served.
s/ Arthur P. Beever
ARTHUR P. BEEVER, Deputy Attorney General
Office of the Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-7004
Telephone: (415) 510-3761
Counsel for Respondent

